No. ______
In the

Supreme Court of the United States
__________________
SPRING BRANCH INDEPENDENT SCHOOL DISTRICT,
Petitioner,
v.
O.W., BY NEXT FRIEND HANNAH W.,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit

__________________
PETITION FOR A WRIT OF CERTIORARI
__________________
AMY C. TUCKER
Counsel of Record
JONATHAN G. BRUSH
ROGERS, MORRIS & GROVER, LLP
5718 Westheimer Road, Suite 1200
Houston, Texas 77057
(713) 960-6000
atucker@rmgllp.com
Counsel for Petitioner

December 23, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Is a public school district’s use of Section 504
accommodations a reasonable step in the process of
complying with its Child Find obligation under the
Individuals with Disabilities Education Act?

ii
RELATED PROCEEDINGS
Spring Branch Indep. Sch. Dist. v. O.W., 2018 WL
2335341 (S.D. Tex. Mar. 29, 2018)
Spring Branch Indep. Sch. Dist. v. O.W., 938 F.3d
695 (5th Cir. 2019), withdrawn on reh’g
Spring Branch Indep. Sch. Dist. v. O.W., 961 F.3d
781 (5th Cir. 2020)

iii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
RELATED PROCEEDINGS . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vi
PETITION FOR A WRIT OF CERTIORARI . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RELEVANT STATUTORY PROVISIONS . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 5
A. Course of proceedings and disposition of the case . . 5
B. Statement of relevant facts . . . . . . . . . . . . . . . . . 6
REASONS FOR GRANTING THE WRIT. . . . . . . . . 8
A. The IDEA’s Child Find requirement . . . . . . . . . . 9
B. The courts of appeals afford school districts a
reasonable period of delay in which to comply
with their Child Find obligations. . . . . . . . . . . . . 9
C. The Fifth Circuit’s decision conflicts with the
holdings of the other circuits and eliminates the
reasonable period of delay afforded to school
districts to comply with their Child Find
obligations and presents the ideal vehicle for
resolving the circuit split . . . . . . . . . . . . . . . . . . 11
1. The Fifth Circuit’s Child Find jurisprudence . . 12

iv
2. The Fifth Circuit erred by eliminating the
period of reasonable delay afforded to a
school district in Child Find cases . . . . . . . . 13
3. The Fifth Circuit’s decision is not only wrong, it
conflicts with the holdings of its sister circuits
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
4. This case is an excellent vehicle for resolving
the circuit split. . . . . . . . . . . . . . . . . . . . . . . . 22
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
APPENDIX
Appendix A On Petition for Rehearing in the
United States Court of Appeals for the
Fifth Circuit
(June 12, 2020) . . . . . . . . . . . . . . . App. 1
Appendix B Order in the United States District
Court Southern District of Texas
Houston Division
(March 29, 2018) . . . . . . . . . . . . . App. 38
Appendix C Order in the United States District
Court Southern District of Texas
Houston Division
(March 29, 2018) . . . . . . . . . . . . . App. 63
Appendix D Order in the United States District
Court Southern District of Texas
Houston Division
(September 22, 2017) . . . . . . . . . App. 65

v
Appendix E Decision of Hearing Officer Before a
Special Education Hearing Officer for
the State of Texas
(October 15, 2018) . . . . . . . . . . . . App. 68
Appendix F On Petition for Rehearing En Banc in
the United States Court of Appeals for
the Fifth Circuit
(July 30, 2020) . . . . . . . . . . . . . App. 266
Appendix G Opinion in the United States Court of
Appeals for the Fifth Circuit
(September 16, 2019) . . . . . . . . App. 269

vi
TABLE OF AUTHORITIES
CASES
A.W. v. Jersey City Pub. Sch.,
486 F.3d 791 (3d Cir. 2007) . . . . . . . . . . . . . . . . . 9
Cypress-Fairbanks Indep. Sch. Dist. v. Michael F.,
118 F.3d 245 (5th Cir. 1997). . . . . . . . . . . . . . . . 18
D.K. v. Abington Sch. Dist.,
696 F.3d 233 (3d Cir. 2012) . . . . . . . . . . . . passim
Durbrow v. Cobb Cty. Sch. Dist.,
887 F.3d 1182 (11th Cir. 2018). . . . . . . . . . . 10, 20
Dallas Indep. Sch. Dist. v. Woody,
865 F.3d 303 (5th Cir. 2017). . . . . . . 12, 13, 14, 16
Fry v. Napoleon Cmty. Sch.,
137 S. Ct. 743 (2017). . . . . . . . . . . . . . . . . . . . . . 17
Krawietz v. Galveston Indep. Sch. Dist.,
900 F.3d 673 (5th Cir. 2018). . . . . . . 12, 13, 14, 16
M.G. v. Williamson Cty. Sch.,
720 F. App’x 280 (6th Cir. 2018) . . . . . . . . . 11, 21
Mr. P. v. West Hartford Bd. of Educ.,
885 F.3d 735 (2d Cir. 2018) . . . . . . . . . . . . . . . . 11
W.B. v. Matula,
67 F.3d 484 (3d Cir. 1995) . . . . . . . . . . . . . . . 9, 10
STATUTES AND REGULATIONS
20 U.S.C. § 794(a). . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
20 U.S.C. § 1401(14). . . . . . . . . . . . . . . . . . . . . . . . . . 6

vii
20 U.S.C. § 1412(a)(3)(A) . . . . . . . . . . . . . . . . . . . . . . 1
20 U.S.C. § 1414(d). . . . . . . . . . . . . . . . . . . . . . . . . . . 6
20 U.S.C. § 1415(i)(2)(A) . . . . . . . . . . . . . . . . . . . . . . 5
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
34 C.F.R. § 104.1 et seq . . . . . . . . . . . . . . . . . . . . . . . 7
34 C.F.R. §§ 104.33-104.34 . . . . . . . . . . . . . . . . . . . 18
34 C.F.R. § 104.33(a) . . . . . . . . . . . . . . . . . . . . . . 3, 18
34 C.F.R. § 104.33(b) . . . . . . . . . . . . . . . . . . . . . . 3, 18
34 C.F.R. § 300.111(a)(1) . . . . . . . . . . . . . . . . . . . . . . 2
34 C.F.R. § 300.111(a)(1)(i) . . . . . . . . . . . . . . . . . . . . 9
34 C.F.R. § 300.320 . . . . . . . . . . . . . . . . . . . . . . . . . . 6
OTHER AUTHORITIES
Perry A. Zirkel, Special Education Legal Alert,
October 2019, https://perryzirkel.files.wordpress.com/
2019/10/zirkel-legalalert-october-2019.pdf . . . . 15
Perry A. Zirkel, The Fifth Circuit’s Latest Child
Find Ruling: Fusion and Confusion, Education
Law into Practice (2020). . . . . . . . . . . . . . . . . . . 15

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Spring Branch Independent School
District respectfully petitions for a writ of certiorari to
review the judgment of the United States Court of
Appeals for the Fifth Circuit.
OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Fifth Circuit (Pet. App. 1) on rehearing is
published at 961 F.3d 781. The original opinion of the
United States Court of Appeals for the Fifth Circuit
(Pet. App. 266) is published at 938 F.3d 695. The
district court’s memorandum and opinion (Pet. App. 38)
is unpublished but available at 2018 WL 2335341.
JURISDICTION
The court of appeals entered its judgment on June
12, 2020. Pet. App. 1. The court denied a timely
petition for rehearing en banc on July 30, 2020. Pet.
App. 266. On March 19, 2020, this Court entered its
standing order that extends the deadline to file a
petition for writ of certiorari in this case to December
28, 2020. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
RELEVANT STATUTORY PROVISIONS
20 U.S.C. § 1412(a)(3)(A)
CHILD FIND
(A)

In general

All children with disabilities residing in
the State, including children with disabilities

2
who are homeless children or are wards of
the State and children with disabilities
attending private schools, regardless of the
severity of their disabilities, and who are in need
of special education and related services, are
identified, located, and evaluated and a practical
method is developed and implemented to
determine which children with disabilities are
c u r r e n t l y r e c e i v i ng neede d s p e c i a l
education and related services.
34 C.F.R. § 300.111(a)(1)
(a)

General.

(1) The State must have in effect policies and
procedures to ensure that (i) All children with disabilities residing
in the State, including children with
disabilities who are homeless children or
are wards of the State, and children with
disabilities attending private schools,
regardless of the severity of their
disability, and who are in need of special
education and related services, are
identified, located, and evaluated; and
(ii) A practical method is developed and
implemented to determine which children
are currently receiving needed special
education and related services.

3
29 U.S.C. § 794(a)
(a)

P ROMULGATION

OF

RULES

AND

REGULATIONS

No otherwise qualified individual with a
disability in the United States, as defined
in section 705(20) of this title, shall, solely by
reason of her or his disability, be excluded from
the participation in, be denied the benefits of, or
be subjected to discrimination under
any program or activity receiving Federal
financial assistance or under any program or
activity conducted by any Executive agency or by
the United States Postal Service. The head of
each such agency shall promulgate such
regulations as may be necessary to carry out the
amendments to this section made by the
Rehabilitation, Comprehensive Services, and
Developmental Disabilities Act of 1978. Copies
of any proposed regulation shall be submitted to
appropriate authorizing committees of
the Congress, and such regulation may take
effect no earlier than the thirtieth day after the
date on which such regulation is so submitted to
such committees.
34 C.F.R. § 104.33(a-b)
(a) General. A recipient that operates a public
elementary or secondary education program or
activity shall provide a free appropriate public
education to each qualified handicapped person
who is in the recipient’s jurisdiction, regardless

4
of the nature or severity of the person’s
handicap.
(b) Appropriate education. (1) For the purpose of
this subpart, the provision of an appropriate
education is the provision of regular or special
education and related aids and services that (i)
are designed to meet individual educational
needs of handicapped persons as adequately as
the needs of nonhandicapped persons are met
and (ii) are based upon adherence to procedures
that satisfy the requirements of §§ 104.34,
104.35, and 104.36.
(2) Implementation of an Individualized
Education Program developed in accordance
with the Education of the Handicapped Act is
one means of meeting the standard established
in paragraph (b)(1)(i) of this section.
(3) A recipient may place a handicapped person
or refer such a person for aid, benefits, or
services other than those that it operates or
provides as its means of carrying out the
requirements of this subpart. If so, the recipient
remains responsible for ensuring that the
requirements of this subpart are met with
respect to any handicapped person so placed or
referred.

5
STATEMENT OF THE CASE
This case involves the intersection in the
schoolhouse of two complementary federal disability
statutes, the Individuals with Disabilities Education
Act (the IDEA) and Section 504. Specifically, on the
road to identifying a new student, O.W., as a student
with a disability who needed special education services,
Spring Branch Independent School District (SBISD or
the District) first provided O.W. accommodations under
Section 504. As explained below, the district court and
Fifth Circuit found the District’s use of Section 504
accommodations was unreasonable and unreasonably
delayed its compliance with its Child Find obligation
under the IDEA.
A. Course of proceedings and disposition of the
case.
This case arises under the IDEA, 20 U.S.C.
§ 1415(i)(2)(A) as an appeal of a special education
hearing officer’s decision in O.W. b/n/f Hannah W. vs.
Spring Branch Independent School District, Docket
No. 068-SE-1015. ROA.15-132. O.W. filed a special
education “due process hearing” request seeking an
order requiring the Spring Branch Independent School
District (the District) to pay for his placement in a
private school, among other relief. ROA.283-290. After
an evidentiary hearing, a Texas Education Agency
(TEA) Hearing Officer issued a decision finding the
District failed to comply with its Child Find obligation
because it failed to timely identify O.W. as a “child with
a disability” and failed to properly implement the

6
Individualized Educational Plan1 (IEP) it developed.
ROA.269-272; RE at Tab 6. As relief, the hearing
officer ordered SBISD to reimburse the parent for two
years of private school expenses. ROA.272; RE at Tab
6. The district court affirmed. ROA.4123-4142. On
appeal, a panel of the Fifth Circuit reversed, in part,
affirmed, in part, and remanded. Spring Branch Indep.
Sch. Dist. v. O.W., 938 F.3d 695 (5th Cir. 2019) (O.W.
I), opinion withdrawn and superseded on reh’g by
Spring Branch Indep. Sch. Dist. v. O.W., 961 F.3d 781
(5th Cir. 2020) (O.W. II). The District filed a petition
for rehearing en banc on October 19, 2019. The Texas
Association of School Boards Legal Assistance Fund
filed an amicus brief in support of the District. The
Court requested a response to the petition, which was
filed on December 6, 2019. The panel treated the
petition as a petition for panel rehearing and, on June
12, 2020, issued a substituted opinion that reached the
same result. See generally O.W. II.
B. Statement of relevant facts.
After four years of private schooling, O.W.’s parents
enrolled him in the District for fifth grade. ROA.956.
The parents provided a letter from O.W.’s psychiatrist
documenting an Attention Deficit Hyperactivity
Disorder (ADHD) diagnosis and a recommendation for

1

An IEP is a written statement of educational services for a
disabled child developed in an Admission, Review, and Dismissal
Committee meeting. 20 U.S.C. §§ 1401(14), 1414(d); 34 C.F.R.
§ 300.320.

7
Section 5042 services. ROA.2032, 3063:15-25, 3064,
3065:1-3.
O.W. immediately began exhibiting behavioral
problems, such as cursing, making racial slurs,
creating violent drawings, and yelling obscenities.
ROA.2023. O.W.’s mother did not suggest the behavior
was related to a disability, but rather explained he was
trying to get sent back to his private school.
ROA.3038:9-12.
On September 16, 2014, Ms. W. received a Section
504 “Notice of Rights.” ROA.2015. Ms. W. also signed
a “Notice and Consent for Initial Section 504
Evaluation” to determine whether O.W. qualified for
Section 504. ROA.2009. On September 19, 2014, SBISD
sent the family notice that a Section 504 meeting would
be convened on October 1, 2014, to consider O.W.’s
eligibility under Section 504. ROA.2008, 2250:9-10.
While SBISD was collecting information for the
Section 504 evaluation, it implemented regular
education interventions available to all students.
ROA.2267:16-20; ROA.2017, 2267:21-25, 2268:1-2, 6-8;
ROA.2019 (documenting “what already has been done
to help this student” as of 10/1/14); ROA.2268:9-11.
Just before the scheduled Section 504 meeting, Ms.
W. provided SBISD with a 2½ year old psychological
2

Section 504 of the Rehabilitation Act prohibits discrimination
against students with disabilities in programs receiving Federal
financial assistance. The Section 504 regulations applicable to
educational programs generally require school districts to provide
a free appropriate public education (FAPE) to eligible students. 34
C.F.R. § 104.1 et seq.

8
report. ROA.1874-1885. The meeting was postponed,
until October 8, 2014, to allow the District’s Licensed
Specialist in School Psychology (LSSP) to attend and
review the evaluation for the Committee. ROA.20012002, 2008, 2019, 2267:4-11. The Committee agreed
O.W. was an eligible student with a disability under
Section 504 and recommended accommodations.
ROA.2004-2005. In addition, a personalized behavioral
intervention plan, titled “[O.W.]’s Success Chart,” was
developed to track O.W.’s problematic behaviors every
thirty minutes and to provide positive behavioral
supports. ROA.1993-1998 (sample behavioral charts).
At the time of the meeting, O.W. was failing all content
classes. ROA.2001. SBISD implemented the Section
504/behavioral intervention plan and O.W.’s behavior
improved. ROA.1970, 2274:23-24. Moreover, in the first
nine-week grading period, O.W. passed all but two
classes. ROA.1715, 1886.
On January 9, 2015, O.W. hit a staff member in the
back with his jacket. ROA.2021. Less than one week
later, on January 13, 2015, O.W. physically assaulted
his teacher, “kicking her and hitting her with a closed
fist.” ROA.2021. SBISD immediately convened another
Section 504 meeting, and recommended O.W. be
referred for a special education evaluation. ROA.2000
(1/15/15 Section 504 meeting).
REASONS FOR GRANTING THE WRIT
The Fifth Circuit’s opinion in this case conflicts with
the decisions of four other circuit courts of appeal and
opens a circuit split on the important question of
whether a public school district may comply with its
Child Find obligation under the IDEA by using Section

9
504 accommodations as part of its Child Find efforts.
This Court should grant this petition in order to resolve
the circuit split.
A. The IDEA’s Child Find requirement.
In order to ensure that children in need of special
education services are timely identified and provided
the services they require, the IDEA imposes a Child
Find obligation on school districts. “Child Find” refers
to the duty to identify, locate, and evaluate all children
in the District who: (1) either have disabilities or are
suspected of having disabilities; and (2) need special
education as a result. 34 C.F.R. § 300.111(a)(1)(i). If a
school district unreasonably delays in meeting its Child
Find obligations, it may rise to the level of a procedural
violation of the IDEA. D.K. v. Abington Sch. Dist., 696
F.3d 233, 249-50 (3d Cir. 2012).
Thus, the courts of appeals have held that the
touchstone of Child Find jurisprudence is the concept
of reasonableness. W.B. v. Matula, 67 F.3d 484, 501 (3d
Cir. 1995), abrogated on other grounds by A.W. v.
Jersey City Pub. Sch., 486 F.3d 791 (3d Cir. 2007). The
reasonableness standard balances both the needs of the
student and the reality that a school district often
needs time in which to assess a child’s needs.
B. The courts of appeals afford school districts a
reasonable period of delay in which to comply
with their Child Find obligations.
The Third and Eleventh Circuits hold a school
district acts reasonably when it first attempts to
address a student with a disability’s needs using
accommodations under Section 504. The Second and

10
Sixth Circuits both hold a school district cannot be held
liable for a Child Find violation absent a showing of
negligence. The Fifth Circuit’s rule – finding the
District violated Child Find by unreasonably delaying
O.W.’s referral to special education because it used
Section 504 accommodations before referring him –
directly conflicts with the holdings of the Third and
Eleventh Circuits and is in irreconcilable tension with
the holdings of the Second and Sixth Circuits.
The Third Circuit: In W.B. v. Matula, 67 F.3d 484
(3d Cir. 1995), the Third Circuit held that, implicit in
the Child Find requirement, school districts are
afforded a reasonable period of delay in which to
comply with their obligations. If a school district does
not unreasonably delay in complying with its obligation
under Child Find, it cannot be held liable for a Child
Find violation. Confirming its standard, in D.K. v.
Abington School District, 696 F.3d 233 (3d Cir. 2012),
the court held that a school district was entitled to a
reasonable period of delay in complying with its Child
Find obligation. Specifically, the court found that the
school district did not violate its Child Find obligation
when it delayed referral for years while using regular
education interventions to assess the student. The
Third Circuit’s reasonable period of delay rule is
mature and has been applied for a quarter of a century
now.
The Eleventh Circuit: Expressly relying on the
Third Circuit’s decision in D.K., in Durbrow v. Cobb
County School District, 887 F.3d 1182 (11th Cir. 2018),
the Eleventh Circuit found a school district properly

11
addressed a student’s needs with a Section 504 plan,
thus, negating the possibility of a Child Find violation.
The Second Circuit: In Mr. P. v. West Hartford
Board of Education, 885 F.3d 735, 750 (2d Cir. 2018)
(citations omitted), the Second Circuit held a Child
Find “claimant must show that school officials
overlooked clear signs of disability and were negligent
in failing to order testing, or that there was no rational
justification for not deciding to evaluate.” Under the
Second Circuit’s rule, a Child Find plaintiff must show
that the school district acted negligently in order to
impose liability.
The Sixth Circuit: The Sixth Circuit echoes the
Second Circuit’s rule. Specifically, in M.G. v.
Williamson County Schools, 720 F. App’x 280 (6th Cir.
2018), the Sixth Circuit held a school district should
not be held liable for a Child Find violation absent a
finding of negligence.
C. The Fifth Circuit’s decision conflicts with the
holdings of the other circuits and eliminates
the reasonable period of delay afforded to
school districts to comply with their Child
Find obligations and presents the ideal
vehicle for resolving the circuit split.
The Fifth Circuit has now issued, in the past three
years, three published opinions addressing the
reasonableness of a school district’s delay in the context
of Child Find. See O.W. II at 793. The latest decision –
the one in this case – departs significantly from the
route taken by its sister circuits.

12
1. The
Fifth
Circuit’s
jurisprudence.

Child

Find

The Fifth Circuit’s first two opinions, Dallas
Independent School District v. Woody, 865 F.3d 303
(5th Cir. 2017) and Krawietz v. Galveston Independent
School District, 900 F.3d 673 (5th Cir. 2018) that bear
on Child Find both relied on the Third Circuit’s
decision in D.K. v. Abington School District, 696 F.3d
233 (3d Cir. 2012). Not surprisingly, D.K., Woody, and
Krawietz all endorse the view that a school district has
a reasonable period of time in which to make a referral
to special education – i.e., all three contemplated some
temporal delay that was reasonable. Woody, 865 F.3d
at 320 (holding schools must evaluate “within a
reasonable time after the school district is on notice of
facts or behavior likely to indicate a disability.”).
That is because, as the Third Circuit observed in
D.K., “. . . schools need not rush to judgment or
immediately evaluate every student exhibiting belowaverage capabilities, especially at a time when young
children are developing at different speeds and
acclimating to the school environment.” 696 F.3d at 252
(omission added). The Third Circuit’s commonsense
observation recognizes the practical reality that schools
are full of children, all of whom exhibit different
behaviors and needs and come to school with different
experiences and expectations. While reaching different
results, the Fifth Circuit’s first two opinions recognized
this fact. Compare Woody, 865 F.3d at 320 (explaining
the district took time to determine its obligations), with
Krawietz, 900 F.3d at 677 (explaining the district did

13
nothing different until after a due process hearing
request).
In Woody, the Fifth Circuit held an 89-day delay
between notice and referral was reasonable where the
district “spent the period ‘requesting and gathering
information on [the student] in an effort to classify her
and determine its obligations [ ] ….”. See O.W. II at 793
(quoting Woody, 865 F.3d at 320) (internal quotations
and insertion in original, omission added). The Woody
Court expressly endorsed the Third Circuit’s opinion
holding “. . . a student must be referred for an
evaluation ‘within a reasonable time after school
officials are on notice of behavior that is likely to
indicate a disability.’” Woody, 865 F.3d at 320
(quotations in original, omission added). The Krawietz
Court repeated the standard, but in contrast,
“. . . found a four-month delay unreasonable where,
during the relevant time period, the school district
‘failed to take any appreciable steps toward complying
with its Child Find obligation.’” See O.W. II at 793
(quoting Krawietz, 900 F.3d at 677) (internal
quotations in original, omission added).
2. The Fifth Circuit erred by eliminating the
period of reasonable delay afforded to a
school district in Child Find cases.
In O.W., the Fifth Circuit attempted to harmonize
its prior opinions, Woody and Krawietz, explaining:
Taken together, Krawietz and Woody stand for
the proposition that the reasonableness of a
delay is not defined by its length but by the
steps taken by the district during the relevant

14
period. A delay is reasonable when, throughout
the period between notice and referral, a district
takes proactive steps to comply with its child
find duty to identify, locate, and evaluate
students with disabilities. Conversely, a delay is
unreasonable when the district fails to take
proactive steps throughout the period or ceases
to take such steps.
See O.W. II at 793. Consequently, “reasonable time” in
the context of delay is determined by consideration of
the actions the school district takes during the delay.
See id. That makes sense in theory; however, the Fifth
Circuit’s decision negates the reasonable time – i.e., the
very concept of delay – that it, as well as its sister
circuits, previously recognized.
Specifically, the Fifth Circuit analyzed the
reasonable time period by looking only to the District’s
actions taken prior to the date of notice. See O.W. II at
794. That is directly contrary to D.K., Woody, and
Krawietz, all of which make clear that the analytical
focus comes after the date on which the school district
has reason to suspect a disability. In fact, one scholar
of special education jurisprudence criticized the
original panel opinion noting that:
This new approach to the second, “reasonable
period” dimension of child find warrants careful
attention. In this case, the court’s application of
this approach is subject to question. Rejecting
rather than crediting the district for moving to
a more formal, systematic step on October 8, the
court appeared to negate any period at all,
conflating it into the “reasonable suspicion”

15
dimension of child find and focusing on the
district’s steps prior to rather than ‘during the
relevant period.
See Perry A. Zirkel, Special Education Legal Alert,
October 2019, https://perryzirkel.files.wordpress.com/
2019/10/zirkel-legalalert-october-2019.pdf. And,
because on rehearing the panel continued to look to
actions that occurred prior to the notice date, Professor
Zirkel’s commentary remains apt with respect to the
substituted opinion. In fact, Professor Zirkel concluded
as much when analyzing the Fifth Circuit’s substituted
opinion:
The interrelated errors in the court’s analysis
cumulatively amounted to conflating, or fusing,
the reasonable-suspicion and reasonable-time
components of child find, thus causing confusion
as to the meaning and application of the second
component, which is whether the time between
reasonable suspicion and evaluation initiation is
reasonable.
Perry A. Zirkel, The Fifth Circuit’s Latest Child Find
Ruling: Fusion and Confusion at 469, Education Law
into Practice (2020). Professor Zirkel’s analysis
highlights the problem with the Fifth Circuit’s opinion,
which now puts school districts in Texas, Louisiana,
and Mississippi in a different position than districts
located in jurisdictions governed by other circuit courts
of appeals, most notably those located within the
Second, Third, Sixth, and Eleventh circuits.
Indeed, the Fifth Circuit’s analysis largely rests on
the observation that:

16
We agree with the hearing officer that by
October 8, 2014, the School District should have
known that general behavior interventions were
not working and that relying exclusively on
§ 504 accommodations, in lieu of evaluation,
would only delay providing O.W. the assistance
he needed. Accordingly, we conclude the
continued use of behavioral interventions was
not a proactive step toward compliance with the
School District’s child find duties and that,
therefore, a child find violation occurred.
See O.W. II at 795. In other words, the Fifth Circuit
equated the failure of general education interventions
prior to the October 8 date of notice with a failure to do
anything after the October 8 date of notice. This fails to
account for the fact that, even if the District had simply
continued with regular education interventions, under
Woody and Krawietz – and the decisions of every other
court of appeals – it was still entitled to a reasonable
delay in referring O.W. to special education – i.e.,
continuing what it was doing does not equate to a per
se Child Find violation. It is only a violation if there is
an unreasonable period of time after the date of notice
during which the district continues “business as usual”
prior to referral. By reversing the analytical window,
the Fifth Circuit eliminated the very concept of
reasonable delay.
What is more, the Fifth Circuit’s rationale still
ignores the proactive steps the District took. Most
significantly, as the Fifth Circuit recognized on
rehearing, after the trigger date the District used a
new strategy that included formal accommodations and

17
interventions under Section 504, a complementary
federal disability protection statute. And those steps
showed success. As the Fifth Circuit noted, between
August 26 and October 6, O.W. was disciplined 8 times.
See O.W. II at 787. Following the October 8 Section 504
meeting the District implemented a formal behavior
intervention plan (BIP) under Section 504. O.W. II at
787. In the month following the implementation of the
BIP, O.W. was disciplined just 1 time. O.W. II at 787.
In November, the second month of the BIP, O.W. was
disciplined 3 times. O.W. II at 787. In December, not at
all. O.W. II at 787. And, in January, when O.W. was
disciplined 2 times for new, physically aggressive
behaviors, the District immediately referred him to
special education. O.W. II at 787. The Fifth Circuit’s
characterization of this as “minimal impact” fails to
appreciate that the implementation of the Section 504
plan succeeded in cutting O.W.’s discipline referrals in
half. See O.W. II at 787.
While the original opinion did not address the
District’s post-notice efforts under Section 504, (see
O.W. I, 938 F.3d at 706-07), on rehearing, the Fifth
Circuit addressed the existence of Section 504 (as
distinct from RtI), but still failed to appreciate the
importance of Section 504. Section 504 is a federal
disability protection statute that provides a qualifying
student with a protected legal status and enforceable
rights. Fry v. Napoleon Community Schools, 137 S. Ct.
743, 750-51 (2017) (explaining the related and,
sometimes, overlapping nature of the IDEA and
Section 504).

18
Importantly, Section 504’s implementing
regulations make clear that it requires “regular or
special education” to meet the needs of disabled
students with the least restrictive means possible – a
core goal of the IDEA. See 34 C.F.R. §§ 104.33 – 104.34
(2000); see also Cypress-Fairbanks Indep. Sch. Dist. v.
Michael F., 118 F.3d 245, 253 (5th Cir. 1997)
(recognizing the importance of providing educational
services in the least restrictive environment).
Specifically, like the IDEA, section 104.33(a) obligates
recipients of federal funding to provide a “free and
appropriate public education” to disabled students. Id.
And section 104.33(b) defines an appropriate education
as “. . . the provision of regular or special education and
related aids and services . . .”) (omissions added). Id.
Here, the Fifth Circuit found O.W.’s behavior –
prior to the implementation of Section 504
accommodations – should have put the District on
notice that the as yet untried use of Section 504
accommodations would not work. This formulation
requires a school district to assume that
accommodations under a complementary federal
disability statute will not work and, instead, rush to
the more restrictive provision of special education. The
Fifth Circuit has eliminated Section 504 as a proactive
step, thus, eliminating its use as a viable option. As a
consequence, a school district that tries to
accommodate a student’s disabilities by using Section
504, violates Child Find if the Section 504
accommodations ultimately are unsuccessful.
If the law as it now stands is that a school district
may not address a student’s needs by using Section 504

19
accommodations, then it begs the question – what
would constitute a reasonable step aside from
requesting consent for an IDEA evaluation. And there
is no longer a period of reasonable delay. This puts the
Fifth Circuit’s jurisprudence into conflict with itself
and with that of its sister courts.
3. The Fifth Circuit’s decision is not only
wrong, it conflicts with the holdings of its
sister circuits.
The Third Circuit case that was the font of the Fifth
Circuit’s Child Find jurisprudence illustrates the
problem with the Fifth Circuit’s approach. In D.K., the
Third Circuit observed “[i]t would be wrong to conclude
that the School District failed to identify D.K. as a
challenged student when it offered him substantial
accommodations, special instructions, additional time
to complete assignments, and one-on-one and specialist
attention en route to eventually finding a disability.”
696 F.3d at 252 (alteration added). In assessing
reasonableness, the Third Circuit further looked to the
fact that the school district’s actions provided “precisely
the types of special measures D.K.’s neurologist
recommended after diagnosing him with ADHD.” Id. at
253. In other words, the Third Circuit’s focus was
appropriately on post-notice actions. Similarly, O.W.’s
private psychiatrist recommended Section 504
accommodations, which the District provided.
ROA.2004-2005; see also O.W. II at 786; ROA.2052;
ROA.3065:1–3. And when, after a period of initial
success, O.W.’s behaviors escalated to physical
aggression, the District referred him to special
education. All within 99 days, including weekends, and

20
the Thanksgiving, Christmas, and New Year’s holidays.
That was reasonable. In fact, the District acted in
substantially less time than was at issue in D.K.
The Fifth Circuit distinguished D.K. by relying on
the fact that it involved a very young student. See O.W.
II at 784. But that misses critical aspects of the Third
Circuit’s holding – most notably that the district’s twoyears long efforts with regular education prior to
referral were “proactive steps.” D.K., 696 F.3d at 252.
A plain reading of the language from D.K. cited by the
Fifth Circuit shows the primary thrust of the holding
is that the IDEA does not compel a rush to judgment.
With a young child, a district may properly use regular
interventions and Section 504 as proactive steps for
years. With an older elementary age student such as
O.W., the temporal period may shrink, but it should
certainly encompass at least a single semester. And
that is the length of time the District used the
proactive steps of RtI and Section 504 before referring
O.W. to special education. Because the Fifth Circuit’s
opinion fails to afford the District even that brief
window, it conflicts with D.K.
It also conflicts with the Eleventh Circuit’s decision
in Durbrow, where that court recognized that the
continued use of Section 504 accommodations for
nearly a whole school year after the student’s grades
declined would have precluded a finding that the
district violated Child Find because it was addressing
the student’s needs through alternative means. 887
F.3d at 1196.
It also conflicts with the rules of the Second Circuit
and Sixth Circuit that a Child Find violation must rest

21
on the district’s negligence in failing to order testing or
the lack of rational justification for not evaluating. 720
F. App’x at 285. Here, trying Section 504 for a short
period of time was rational. This is especially true in
light of the Fifth Circuit’s conclusion the District’s
Section 504 plan itself was reasonable. See O.W. II at
794, n.12. Using accommodations under a
complementary federal disability statute is not
negligent.
What the Fifth Circuit’s holding means is that, if
regular education interventions have failed prior to the
notice date, then the school district labors under a duty
to make an immediate referral in order to avoid
committing a Child Find violation. Of course, in
virtually every situation before a child is referred for a
special education evaluation, the school district will
have used regular education. As a practical matter, the
reasonable time period that the Fifth Circuit previously
recognized – along with its sister courts of appeals – no
longer exists within the Fifth Circuit.
The consequences of this new articulation of the
rule are enormous. Especially when considered in light
of the fact that many children, even those with
disabilities, will exhibit behavioral issues or academic
challenges at some point that will not require special
education. Rather, their needs can, and should be,
addressed through regular education interventions or
Section 504 accommodations. But, under the Fifth
Circuit’s articulation and application of the rule,
neither step is reasonable. That will lead to subjecting
some students to unnecessary evaluations. And the
Fifth Circuit now requires that educators forgo

22
exercising their professional judgment and, instead,
anticipate that anything other than special education
will fail.
4. This case is an excellent vehicle for
resolving the circuit split.
The Third Circuit, in particular, has developed
Child Find jurisprudence that stretches back a quarter
of a century. The Second, Sixth, and Eleventh Circuits
have all relied on the Third Circuit’s reasonable period
of delay standard. In fact, until this case, the Fifth
Circuit did, too. Given the maturity of the Third
Circuit’s rule, there is virtually no prospect that the
Third Circuit, or those that have followed it, will
change its rule. And, with the Fifth Circuit denying en
banc rehearing, there is every indication that the Fifth
Circuit will continue to apply its new rule. The circuit
split will not go away.
What is more, Child Find was litigated at every step
of the proceedings in this case. Consequently, there is
no prospect that the Court will determine that the
record is lacking necessary factual development. In
other words, the Court will not find itself deciding this
case on an alternative ground.
This Court should accept this case to clarify that the
proactive steps that dictate reasonableness are those
that come after notice of a disability and, also, to hold
that the short-term use of Section 504 accommodations
en route to an ultimate finding of eligibility is a
reasonable, proactive step.

23
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
Respectfully submitted,
AMY C. TUCKER
Counsel of Record
JONATHAN G. BRUSH
ROGERS, MORRIS & GROVER, LLP
5718 Westheimer Road, Suite 1200
Houston, Texas 77057
(713) 960-6000
atucker@rmgllp.com
Counsel for Petitioner
December 23, 2020

